No. 20-7935
INTHE

~uprcnre @ourt of ±4c Jliuitco ~tatcs
WILMAR RENE DURAN GOMEZ,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
On Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

REPLY BRIEF FOR PETITIONER

Cullen Macbeth
Assistant Federal Public
Defender
OFFICE OF THE FEDERAL
PUBLIC DEFENDER

6411 Ivy Lane

Suite 710
Greenbelt, MD 20770
(301) 344-0600

cull en_macbeth@fd.org

TABLE OF CONTENTS

Page
Table of Authorities .......................................................... ii
Introduction ....................................................................... 1
Argument ........................................................................... 2
I. Duran Gomez's speedy-trial right attached
in 2006, when ICE effected a pretextual
arrest for civil immigration violations ............... 2
II. The Fifth Circuit's error was not harmless ...... 5
III. The posture of this case does not counsel
against granting the petition .......................... 10
Conclusion ........................................................................ 12

ii

TABLE OF AUTHORITIES
Cases:

Page(s)

Azar v. Garza, 138 S. Ct. 1790 (2018) .............................. 11
Barker v. Wingo, 407 U .S. 514 (1972) ..................... passim
Boyer v. Louisiana, 569 U.S. 238 (2013) ........................ 10
Doggett v. United States, 505 U.S. 647 (1992) ............. 6, 7
United States v. De La Pena-Juarez, 214 F.3d 594
(5th Cir. 2000) ........................................................... 3, 11

Constitutional Provisions:

Page(s)

U.S. Const. amend VI ......................................................... 1, 2

Other Sources:

Page(s)

Stephen M. Shapiro, et al., Supreme Court
Practice (10th ed. 2013) ............................................... 11

1

INTRODUCTION

The government does not deny that law enforcement agents' primary purpose in arresting Duran
Gomez was to hold him for future criminal prosecution
on homicide charges, rather than to detain him for civil
immigration proceedings. Nor does it deny that arresting a defendant on pretextual grounds, as agents did
here, distorts the Barker v. Wingo, 407 U.S. 514 (1972),
balancing analysis, threatening to undermine defendants' Sixth Amendment right to a speedy trial. The government makes no effort to defend the rule adopted by
the Fifth Circuit, and it does not deny that that rule
opens the door to serious prosecutorial abuse.
Instead, the government principally argues that
any error is harmless because the Fifth Circuit
(1) wrote that it "need not decide" when Duran Gomez's
speedy-trial right attached (2006 or 2010), and (2) said it
would have rejected Duran Gomez's speedy-trial claim
even if the right attached in 2006. The government's
second claim is simply false: at no point in its opinion did
the Fifth Circuit give any indication that it would have
reached the same ultimate result if Duran Gomez's
speedy-trial right had attached in 2006. As to the first
claim, the Fifth Circuit did have to decide when the
right attached. The exact date of attachment is relevant
to the length of pretrial delay (first Barker factor),
whether the government should be held responsible for
the delay because of the deliberate, bad-faith conduct in
which the district court found it engaged (second factor), and the extent of prejudice Duran Gomez suffered
(fourth factor). There was no way the Fifth Circuit could

2

resolve Duran Gomez's appeal without first determining
when his speedy-trial right attached. And the Fifth Circuit's analysis leaves no doubt that the court concluded-erroneously-that the right attached in 2010, not
2006. The court's error was not harmless.

ARGUMENT
I.

Duran Gomez's speedy-trial right attached in
2006, when ICE effected a pretextual arrest
for civil immigration violations.
The government acknowledges a defendant's Sixth
Amendment speedy-trial right attaches at the earlier of
arrest or indictment, but it contends Duran Gomez's
2006 arrest did not trigger the Speedy Trial Clause because he was not then held "in connection with" the
homicides. BIO.12-13. To support this argument, the
government cites Immigration and Naturalization Service paperwork showing Duran Gomez appeared before
an immigration official on the day after his arrest.
BIO.13 (citing ROA.1304-07). That paperwork is immaterial. Duran Gomez has never denied that the government claimed to arrest him for "administrative immigration violations," for which he was taken before an INS
official. App.Sa. He argues, instead, that ICE used civil
immigration arrest as a ruse to detain him for a future
homicide prosecution, and therefore that his post-arrest
detention did in fact "arise from the [homicide] charges
in this case." BIO.13. On this question of pretext, the
government has almost nothing to say about the record.
The government does not dispute that ICE began
surveilling Duran Gomez as part of what agents called
"a criminal investigation"; that the arrest occurred pur-

3

suant to ICE's "alien smuggling organizations investigations" project; that the "seizing officer" and "supervisor" overseeing the arrest were "criminal investigators"; that on the day of his arrest, agents wrote in an
inventory report that Duran Gomez was being
"charged" with harboring unlawful aliens; or that, in a
follow-up report, agents said Duran Gomez had been
"arrested ... for alien smuggling and potential involvement in 2 homicides." See Pet.21-22. Nor does the government dispute that in the hours immediately following
his arrest, Duran Gomez was questioned about the homicides by FBI agents-who are not typically involved in
interviewing suspects arrested for civil immigration violations. App.25a. During that interview, agents told Duran Gomez that he was being charged with alien smuggling and that he faced death or life in prison if convicted. Dist. Ct. Dkt., ECF Nos. 655 at 1-2, 655-2.
In the face of this evidence, the government cannot bring itself to represent that Duran Gomez's arrest
was a bona fide effort to detain him for civil removal
proceedings. And no wonder: the idea that ICE actually
intended to deport Duran Gomez-having arrested him
as part of a criminal investigation into a double homicide, and having identified the criminal statute under
which prosecutors would charge him-is beyond
farfetched. Under these circumstances, the record establishes that "'the primary or exclusive purpose of the
civil detention was to hold [Duran Gomez] for future
criminal prosecution."' Pet.32 (quoting United States v.
De La Pena-Juarez, 214 F.3d 594,598 (5th Cir. 2000)).
The government claims Duran Gomez "does not
dispute that he was properly subject to administrative
detention and removal." BIO.15. That is beside the
point. The question in a "ruse exception" case is not

4

whether agents were legally authorized to arrest the defendant on civil immigration violations, but whether
those violations were the true basis of the arrest, or instead a mere pretext. If unlawful immigration status
were enough to show that an arrest is not pretextual,
then the ruse exception would never apply; the exception takes it for granted that a defendant may be detained because of his immigration status if that status is
the true basis of his arrest. Thus even assuming Duran
Gomez was in the country illegally, that fact would not
make his arrest for "administrative immigration violations" any less pretextual.
The government also observes that prosecutors
were not "required to charge [Duran Gomez] with a
crime immediately upon obtaining probable cause to do
so." BIO.15. This is true but irrelevant. Duran Gomez
does not argue the government should have indicted him
on the homicides in 2006, when agents believed they had
probable cause. He simply argues that, because he was
arrested for the homicides in 2006, his speedy-trial right
attached at that time; how quickly the government obtained an indictment after arrest does not bear on law
enforcement's basis for the arrest at the time it was
made.
Equally irrelevant is the fact that "the government
did in fact charge [Duran Gomez] with an obstruction
crime soon after ICE took him into administrative custody." BIO.16. Post-arrest charges on one offense (obstruction of justice) cannot retroactively change the fact
that the basis of Duran Gomez's arrest was a different
offense (homicide). In consequence, Duran Gomez's
speedy-trial right as to the homicide charges attached in
November 2006, regardless of when he was indicted on
the unrelated obstruction count.

5

Finally, the government argues Duran Gomez's
post-arrest detention added only two weeks to the
length of pretrial delay, because after December 2006
he was held "based on the criminal charges for obstruction of justice." BIO.16. But once Duran Gomez was arrested for the homicides in November 2006, the speedytrial clock began to run, and it continued to run notwithstanding that he was later charged with other offenses.
The government cites no authority for the proposition
that the filing of additional charges tolls the speedy-trial
clock as to previous offenses.
II.

The Fifth Circuit's error was not harmless.
The government contends "any factual dispute"
regarding the date of attachment "is immaterial."
BIO.12. According to the government, the Fifth Circuit
said "it 'need not decide,"' and therefore did not decide,
whether Duran Gomez's speedy-trial right attached in
2006 or 2010. BIO.11. And, the government asserts, the
Fifth Circuit "found that [Duran Gomez's] speedy trial
claim would fail regardless of whether the right attached in 2006 or 2010." BIO.11. The government is
wrong on all three counts: the Fifth Circuit did need to
determine the precise date of attachment, it did in fact
decide that question (even if it purported not to), and it
did not say the Barker balancing would have come out
the same way if Duran Gomez's speedy-trial right had
attached in 2006. Contrary to the government's suggestion, therefore, the Fifth Circuit's error was not harmless.
First, resolving Duran Gomez's appeal required
identifying the exact date on which his speedy-trial right
attached. The Fifth Circuit wrote that it "need not decide" whether Duran Gomez's right attached in 2006 or
2010 "because the length of delay in either instance far

6

exceeds the one-year threshold required to trigger an
analysis of the remaining Barker factors." App.8a n.7.
That is true as far as it goes: regardless of whether the
pretrial delay was fourteen-and-a-half years (because
Duran Gomez's speedy-trial right attached in 2006) or
eleven years (because it attached in 2010), the delay was
greater than one year. For purposes of whether delay is
sufficient "to trigger a speedy trial analysis," all periods
exceeding one year are indistinguishable. Doggett v.
United States, 505 U.S. 647, 651 (1992). But they are not
indistinguishable for purposes of the first factor in that
speedy-trial analysis, which concerns "the extent to
which the delay stretches beyond the bare minimum
needed to trigger judicial examination of the claim." Id.
at 652. The first Barker factor, in other words, asks not
just whether delay exceeds one year, but how much
greater than one year it is. So a fourteen-and-a-halfyear delay will weigh more heavily against the government than an eleven-year delay, and a court cannot
properly balance the Barker factors unless it determines exactly how long the delay is.
The Fifth Circuit apparently tried to sidestep this
problem by concluding that "the delay (from indictment
to dismissal) is, at the very least, greater than nine
years," which "weighs heavily against the government."
App.8a-9a. But even if a delay of nine-plus years weighs
heavily against the government, it does not weigh as
heavily as a delay of fourteen-plus years. Barker therefore required the Fifth Circuit to decide when exactly
the delay began, i.e., when Duran Gomez's right attached.
There are additional reasons, specific to this case,
that the Fifth Circuit needed to commit to an attachment date. The district court found as a fact that the

7

government finished investigating the homicides in 2007
"but chose to delay the Indictment until [Duran Gomez]
was sentenced in the obstruction case." App.34a. The
court made a further factual finding that this delay was
"deliberate[]," reflected "bad faith," and "was intentional and undertaken for the sole purpose of gaining some
tactical advantage." App.47a. The district court's badfaith finding played a central part in its Barker balancing analysis, and Duran Gomez relied heavily on that
finding in urging the Fifth Circuit to affirm. See, e.g.,
App.47a-48a, 63a-64a, 68a-70a; C.A. Def. Br. 75-84. If
the government indeed delayed in bad faith, and if that
bad faith occurred after Duran Gomez's speedy-trial
right had attached, that fact would tilt the second Barker factor decisively in Duran Gomez's favor. See Doggett, 505 U.S. at 656 (explaining that defendant "would
prevail if he could show that the Government had intentionally held back in its prosecution of him to gain some
impermissible advantage at trial," and adding that "official bad faith in causing delay will be weighed heavily
against the government"). The Fifth Circuit therefore
could not meaningfully review the district court's
speedy-trial holding without deciding whether Duran
Gomez's right had attached by the time of the government's bad-faith conduct between 2007 and 2010. 1
Likewise, at the fourth Barker prong, Duran
Gomez argued to the Fifth Circuit that he was preju-

The only way to avoid deciding that question would have
been to hold that the district court's bad-faith finding was clearly
erroneous, and thus that it did not matter whether the supposed
bad faith occurred pre- or post-attachment. But the Fifth Circuit
did not take that route.
1

8

diced by, among other things, certain events that occurred in the arrest-to-indictment period. See C.A. Def.
Br. 135-36. To evaluate this particular claim of prejudice, the Fifth Circuit needed to decide whether his
speedy-trial right had attached by that point; if it had
not, any prejudice would be non-cognizable.
Second, although the Fifth Circuit refused to say
so, it did decide-at least implicitly-that Duran
Gomez's speedy-trial right attached in 2010, not 2006. At
numerous points, the court's analysis assumed attachment in 2010:


In reciting the case history, the Fifth Circuit
wrote that "[o]n November 21, 2006, DuranGomez was arrested for civil immigration violations." App.3a. Thus the Fifth Circuit believed Duran Gomez was not arrested for the
homicides in 2006, which would mean his
speedy-trial right did not attach at that time.
 The Fifth Circuit declined the government's
invitation to hold that "the speedy trial right
is charge-specific, such that the speedy trial
'clock' begins anew with respect to additional
counts charged in superseding indictments."
In explaining why it was unnecessary to resolve this question, the court wrote that the
length of the delay "[wa]s the same regardless of whether Duran-Gomez's speedy trial
right attached in 2010 (the original indictment) with respect to all counts or whether
the right attached as to some counts in 2010
and as to others in 2017 (the second superseding indictment)." App.8a-9a n.8. In the Fifth
Circuit's view, the earliest the speedy-trial
right could have attached as to counts in the

9

superseding indictment was 2010; the court
did not even consider the possibility that it attached following arrest in 2006.


The Fifth Circuit began its analysis of the
second Barker factor by noting that "[s]ince
his original indictment in 2010," Duran
Gomez had moved for ten continuances.
App.l0a. By starting its speedy-trial analysis
in 2010, the Fifth Circuit made plain that it
believed Duran Gomez's right did not attach
in 2006.
 The Fifth Circuit's second-factor analysis
made no mention of the district court 's factual
finding that the government engaged in badfaith delay between 2007 and 2010. See
App.9a-15a. The only way to justify ignoring
that bad faith-which was essential to both
the district court's holding and Duran
Gomez's appellate argument-was to conclude his speedy-trial right did not attach until 2010.


The prejudice portion of the Fifth Circuit's
opinion did not address Duran Gomez's argument that he was prejudiced by certain
pre-indictment events. See App.18a-21a.
 In weighing the Barker factors, the Fifth
Circuit wrote that "Duran-Gomez did not assert his speedy trial right for over nine
years"-i.e., until he filed the motion to dismiss in August 2019, nine years after the 2010
indictment. App.22a. The use of 2010 as the
starting point for measuring when Duran
Gomez asserted his rights means the court

10

believed the speedy-trial right attached in
2010, not 2006.
The reasoning and analysis in the Fifth Circuit's
opinion fall apart unless Duran Gomez's right attached
in 2010, and not sooner.
Third, the government argues the Fifth Circuit
"found that [Duran Gomez's] speedy trial claim would
fail regardless of whether the right attached in 2006 or
2010." BIO.11. That is wrong. Nowhere in its opinion
does the Fifth Circuit say it would have rejected Duran
Gomez's claim even if his speedy-trial right had attached
in 2006-i.e., even if the delay were fourteen-and-a-half
years rather than eleven, even if the court considered
the government's deliberate, bad-faith delay at the second Barker prong, and even if pre-indictment events
could contribute to prejudice. The Fifth Circuit made no
such harmlessness holding, and the government cites no
language in the opinion that suggests it did. The government's characterization of the Fifth Circuit's opinion
is inaccurate.
And, contrary to the government's suggestion, Duran Gomez does "independently dispute the [Fifth Circuit's] speedy-trial-right analysis." BIO.10. The "Barkerfactors must be viewed collectively," which means
that a change in how any one factor is weighed "could
very well ... affect[] the outcome" of the balancing analysis. Boyer v. Louisiana, 569 U.S. 238, 247 (2013) (Sotomayor, J., dissenting from dismissal of writ of certiorari as improvidently granted). Here, the Fifth Circuit's
error regarding the attachment date affected proper
weighing of three separate factors (the first, second, and
fourth). Accordingly, this Court should hold the government may not use pretextual civil arrests to stymie
defendants' Sixth Amendment speedy-trial rights, and

11

should remand to the Fifth Circuit for reconsideration
in light of that ruling.
III.

The posture of this case does not counsel
against granting the petition.
The government argues review in this case is "unwarranted in light of its interlocutory posture." BIO.18.
But while "the interlocutory nature" of a judgment "is
relevant to [this] Court's discretionary assessment of
the appropriateness of immediately reviewing such a
judgment," it is not dispositive. Stephen M. Shapiro et
al., Supreme Court Practice§ 4.18 at 282 (10th ed. 2013).
Where "there is some important and clear-cut issue of
law that is fundamental to the further conduct of the
case and that would otherwise qualify as a basis for certiorari, the case may be reviewed despite its interlocutory status." Id. at 283. Indeed, the government itself has
elsewhere acknowledged that this Court often "reviews
interlocutory decisions that turn on the resolution of
important legal issues." Gov't Cert. Reply Br. 5, Azar v.
Garza, 138 S. Ct. 1790 (2018) (No. 17-654) (citing cases).
Duran Gomez's case presents such an issue. The
government does not defend the legal principle the Fifth
Circuit endorsed. It does not attempt to explain why it
should be permitted to effect pretextual arrests on civil
immigration violations while agents continue their investigation. It does not deny that condoning such pretextual arrests would warp the Barker analysis by artificially shortening the period of pretrial delay, excluding
relevant evidence of governmental bad faith when apportioning blame, making it harder for defendants to
assert their speedy-trial rights, and preventing judicial
consideration of prejudice suffered in the arrest-toindictment window. See Pet.23-31. And it does not disagree that, if courts countenance pretextual arrests de-

12

signed to prevent attachment of the Sixth Amendment
right, the Speedy Trial Clause "'would lose all meaning."' Pet.32 (quoting De La Pena-Juarez, 214 F.3d at
598).

That silence is telling. Prosecutors are not ordinarily shy about justifying the tools at their disposal. That
the government has not done so here suggests the Fifth
Circuit's opinion permits a type of abuse that threatens
to render the speedy-trial promise illusory.

CONCLUSION

The Court should grant the petition for a writ of
certiorari.

Respectfully submitted,
Cullen Macbeth
Assistant Federal Public
Defender
OFFICE OF THE FEDERAL
PUBLIC DEFENDER

6411 Ivy Lane
Suite 710
Greenbelt, MD 20770
(301) 344-0600
cullen_macbeth@fd.org

August 18, 2021

